U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                    February 2008
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the twelfth since enactment of the legislation in October 2001 – summarizes
the OIG’s Section 1001-related activities from July 1, 2007, through
December 31, 2007.

I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.




       1  The OIG can investigate allegations of misconduct by any Department employee,
except for allegations of misconduct by attorneys (or investigators working under the direction
of Department attorneys) acting in their capacity to litigate, investigate, or provide legal advice.
See Pub. L. 107-273 § 308, 116 Stat. 1784 (Nov. 2, 2002).


Office of the Inspector General, U.S. Department of Justice                              Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters, a second who assists on FBI matters, and a third who provides
support on ATF cases. In addition, five Investigative Specialists support the
unit and divide their time between Section 1001 and FBI/DEA/ATF
responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an Investigative Specialist. After review, each complaint is entered
into an OIG database and a decision is made concerning its disposition. The
more serious civil rights and civil liberties allegations that relate to actions of
DOJ employees or DOJ contractors normally are assigned to an OIG
Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct. 3 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs for handling. In certain referrals, the OIG requires the components to
report the results of their investigations to the OIG. In most cases, the OIG
notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the border patrol are sent to the
      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs of the Social Security Administration, the Equal
Employment Opportunity Commission, and the United States Postal Service.
In addition, we have referred complainants to state Departments of Correction
that have jurisdiction over the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation either by the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

     A. Complaints Processed This Reporting Period

       From July 1, 2007, through December 31, 2007, the period covered by
this report, the OIG processed 482 Section 1001-related complaints. 4

       Of these complaints, we concluded that 355 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Approximately 282 of
these 355 complaints involved allegations against agencies or entities outside
of the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. The remaining 73 of the 355 complaints raised allegations that, on
their face, did not warrant investigation. Complaints in this category included,
for example, allegations that FBI agents manipulated the social interactions of
a complainant and subjected another complainant to unknown forms of
aggression through manipulation of the radio spectrum.

      The remaining 127 of the 482 total complaints involved DOJ employees
or components and included allegations that required further review. We
determined that 120 complaints raised management issues that generally were
not related to our Section 1001 duties, and we referred these complaints to
DOJ components for appropriate handling. Examples of complaints in this
category included inmates’ allegations about the general conditions at federal
prisons, and complaints that the FBI did not initiate an investigation into
particular allegations.

      The OIG identified the 7 remaining complaints as matters that we
believed warranted an investigation to determine if Section 1001-related abuse
occurred. One of the matters is being investigated by the OIG, 6 of the matters

     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
were referred to the BOP for investigation. We discuss the substance of these 7
complaints in the next section of this report.

       None of the 482 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the complaints processed during this
reporting period:

      Complaints processed:                        482

      Unrelated complaints:                        355

      Total complaints within OIG’s
       jurisdiction warranting review:             127

         •   Management issues:                    120

         •   Possible Section 1001 matters
             warranting investigation:                7

    B. Section 1001 Cases This Reporting Period

      1. New matters

      During this reporting period, the OIG opened one new Section 1001
investigation. Additionally, the OIG referred six Section 1001-related
complaints to the BOP for investigation. For each of those referrals, we
requested that the BOP provide the OIG with a copy of its investigative reports
upon completion of the investigations.

      The following is a summary of the new matter opened by the OIG this
   reporting period:

         •   The OIG is investigating allegations that BOP employees violated
             the civil rights of the spouse of a Muslim inmate when she visited
             her husband at a BOP facility. The complainant alleged that she
             was unfairly targeted for personal searches and unnecessary
             document requests because of her Muslim-related religious
             clothing.

      The following six complaints were referred to the BOP for investigation:

         •   An inmate alleged that the BOP unfairly imposed special
             administrative sanctions on him because of his ethnicity. The BOP


Office of the Inspector General, U.S. Department of Justice            Page 5
             Office of Internal Affairs determined that the United States
             Attorney’s Office had requested that special administrative
             measures be imposed on the inmate for appropriate reasons. The
             allegation was, therefore, unsubstantiated.

         •   An inmate alleged that he is being verbally abused by BOP staff
             because he is Muslim. The OIG is awaiting the result of BOP’s
             investigation.

         •   An inmate who is originally from Pakistan alleged that he has been
             discriminated against by BOP employees because of his race and
             religion. The inmate alleged that he has been transferred several
             times and unfairly placed in the Special Housing Unit (SHU). The
             inmate alleged that while he was in the SHU he was harassed by
             correctional officers, did not receive timely medical treatment, had
             his legal documents confiscated, and was forced to sleep on dirty
             bed linens. The OIG is awaiting the result of BOP’s investigation.

         •   A Muslim inmate alleged that when he returned to his cell after it
             had been searched, he noticed that his Koran had been moved to
             the floor and stepped on. The OIG is awaiting the result of BOP’s
             investigation.

         •   A Muslim inmate alleged that ever since he arrived at a BOP facility
             he has been subjected to “administrative sanctions and racial
             epithets” on an ongoing basis. The OIG is awaiting the result of
             BOP’s investigation.

         •   An inmate alleged that a BOP chaplain was teaching an “extreme
             radical terrorist style of Islam and breeding terrorists.” The inmate
             alleged that he and his father were unnecessarily placed in the
             SHU because they complained about the chaplain. The inmate
             further alleged that a BOP employee called him and his father
             “terrorists.” The OIG is awaiting the result of BOP’s investigation.

      2. Cases opened during previous reporting periods that the OIG
         continues to investigate

         •   The OIG is investigating allegations that a BOP inmate was
             physically and verbally abused by correctional officers because he
             is Arab and Muslim. The complaint includes allegations that the
             inmate was pushed against a wall, placed in a cold cell with water
             on the floor, that his undergarments were confiscated and replaced
             with undergarments with holes, and that his legal documents were
             confiscated and “misplaced.” The OIG investigation is ongoing.



Office of the Inspector General, U.S. Department of Justice             Page 6
         •   The OIG is investigating allegations from a BOP inmate that
             correctional officers came into his cell in the SHU during a routine
             movement of the inmate to another cell and referred to the
             complainant and his cellmate as “camel jack” and “Saddam
             Hussein.” The inmate further alleged that when he asked the
             correctional officers not to speak to him in that manner, they
             assaulted him. The complainant alleged that when he tried to file
             a complaint with the BOP, he was told that an investigation could
             take up to 6 months, during which time he would be placed in the
             general population where the word would get out that he was a
             snitch. The OIG investigation is ongoing.

      3. Investigations closed during this reporting period

         •   The OIG referred to the BOP for investigation allegations that a
             Muslim inmate’s civil rights were violated because BOP staff
             ordered him to remove his Kufi and ordered him not to pray in the
             prison library. The BOP Office of Internal Affairs investigation did
             not substantiate the allegations. The BOP staff members denied
             the allegations and no other evidence supported the complaint.

         •   The OIG referred to the BOP for investigation allegations that a
             BOP employee threatened to “expropriate” the inmate’s religious
             beads; tried to “malign” the inmate’s character by discussing his
             alleged terrorist ties and nationality in front of other inmates; used
             excessive force on the inmate; and verbally abused him. The
             inmate also filed a tort claim alleging that some of his property was
             lost while he was in segregation. The BOP Office of Internal Affairs
             investigation did not substantiate the allegations. The BOP
             employee denied engaging in the alleged conduct and none of the
             purported witnesses to the incidents corroborated the
             complainant’s allegations.

         •   The OIG referred to the FBI for investigation allegations that the
             Arab-Muslim residents of a metropolitan area were subjected to
             unspecified harassment and insults by local FBI personnel. The
             complainant alleged that one specific FBI agent, whom he failed to
             identify, exhibited racist behavior about the Arab-Muslim
             residents, and threatened members of the Arab-Muslim
             community with arrest. The FBI Inspection Division determined
             that the complainant’s allegations were not sufficiently specific to
             warrant initiation of an investigation.




Office of the Inspector General, U.S. Department of Justice              Page 7
IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has initiated or continued several
such special reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

      A. Review of the FBI’s Use of National Security Letters and Ex Parte
         Orders for Business Records

       On March 9, 2007, as required by the USA PATRIOT Improvement and
Reauthorization Act of 2005 (Public Law 109-177) (Patriot Reauthorization Act),
the OIG issued two reports that examined the FBI’s use of two authorities
established or amended by the Patriot Act:

      (1) the FBI’s authority to issue national security letters to obtain –
without a court order – certain categories of records from third parties,
including telephone toll billing records, electronic communication transactional
records, financial records, and credit information; and

      (2) the FBI’s authority to obtain business records from third parties by
applying for ex parte orders issued by the Foreign Intelligence Surveillance
Court pursuant to Section 215 of the Patriot Act.

       The Patriot Reauthorization Act directed the OIG to review the extent to
which the FBI has used these authorities; any bureaucratic impediments to
their use; how effective these authorities have been as investigative tools and in
generating intelligence products; how the FBI collects, retains, analyzes, and
disseminates information derived from these authorities; whether and how
often the FBI provided information derived from these authorities to law
enforcement officials for use in criminal proceedings; and whether there has
been any improper or illegal use of these authorities. See Sections 106A and
119 of Public Law 109-177.

       In our last semiannual report to Congress on Implementation of Section
1001 of the USA PATRIOT Act, we summarized the scope of the reviews and
recommendations made in our March 2007 reports examining the FBI’s use of
national security letters (NSL) from 2003 through 2005, and Section 215 orders
from 2002 through 2005. The OIG produced classified reports on the use of
NSLs and Section 215 authority and provided these classified reports to
Congress and to the Intelligence Oversight Board of the President’s Foreign
Intelligence Advisory Board. We also released publicly unclassified versions of
these reports.



Office of the Inspector General, U.S. Department of Justice             Page 8
      As previously reported to Congress, pursuant to the Patriot
Reauthorization Act, the OIG is continuing its review of the FBI’s use of NSLs
and Section 215 orders in 2006. We will issue shortly our reports describing
the FBI’s use of NSLs and Section 215 orders for business records in 2006.
Our NSL report will also describe the FBI’s and the Department’s response to
the OIG’s recommendations in our first NSL report as well as other measures
that the Department and the FBI have implemented or proposed to address the
serious misuse of NSL authorities that our first report described.

       We also are completing a detailed investigation of the FBI’s use of exigent
letters, a practice that we generally described in our first NSL report. The
results of that investigation will be described in a separate report, which will be
completed in the next several months.

      B. Review of the Department’s Involvement with the National
         Security Agency’s Terrorist Surveillance Program or Warrantless
         Surveillance Program

      The OIG is reviewing the Department’s involvement with the National
Security Agency (NSA) program known as the “terrorist surveillance program”
or “warrantless surveillance program.” This ongoing review is examining the
Department’s controls and use of information related to the program and the
Department’s compliance with legal requirements governing the program.

      C. Review of FBI Conduct Relating to Detainees in Military
         Facilities in Guantanamo Bay and Iraq

       The OIG has completed a draft of its review of FBI employees’
observations and actions regarding alleged abuse of detainees at Guantanamo
Bay, Iraq, and Afghanistan. In late October, the OIG’s draft report, which has
classified material in it, was provided to the FBI, the DOJ, the Department of
Defense, and the Central Intelligence Agency (CIA) for comment on factual
accuracy and a sensitivity/classification review. That interagency review for
factual accuracy and classification has been slow and is still ongoing. We will
provide the classified report to the appropriate oversight committees of
Congress when it is completed. We also are working to issue publicly an
unclassified summary of our review.

       In this review, the OIG examined whether FBI employees participated in
any incident of detainee abuse, whether FBI employees witnessed incidents of
abuse, whether FBI employees reported any abuse, and how those reports were
handled by the FBI. The OIG interviewed detainees, FBI employees, and
military personnel at Guantanamo. In addition, the OIG administered a
detailed questionnaire to more than 1,000 FBI employees who served
assignments at Guantanamo Bay, in Iraq, and in Afghanistan. The
questionnaire requested information on what the FBI employees observed,


Office of the Inspector General, U.S. Department of Justice              Page 9
whether they reported observations of concern, and how those reports were
handled.

      D.   Review of the FBI’s Investigation of Certain Domestic Advocacy
           Groups

       The OIG is continuing to review allegations that the FBI targeted
domestic advocacy groups for scrutiny based solely upon their exercise of
rights guaranteed under the First Amendment of the United States
Constitution. The review is examining allegations regarding the FBI’s
investigation, and the predication for any such investigation, of groups
including the Thomas Merton Center, Greenpeace, and People for the Ethical
Treatment of Animals (PETA). Our review of the domestic advocacy groups is
similar in focus to the OIG’s April 2006 review of the FBI’s investigation of
potential protesters at the 2004 Democratic and Republican National
Conventions.

      E. Follow-up Audit of the Terrorist Screening Center

       In September 2007, the OIG completed a follow-up to our 2005 audit of
the Terrorist Screening Center (TSC), a multi-agency effort administered by the
FBI to consolidate terrorist watchlists and provide 24-hour, 7-day a week
responses for screening individuals. The follow-up audit concluded that the
TSC has made improvements since our previous audit was completed, but
weaknesses still existed in several watchlist processes and significant
deficiencies remained in the data contained in the consolidated terrorist
watchlist. The OIG made 18 recommendations to help the FBI improve TSC
operations and the quality of its watchlist data.

      F. Audit of the Department’s Watchlist Nomination Process

      The OIG is currently conducting an audit of the processes used
throughout the Department for nominating individuals to the
consolidated terrorism watchlist maintained by the TSC. This audit is
examining the specific policies and procedures of Department components for
nominating individuals to the consolidated watchlist. The audit also is
reviewing the training provided to the individuals who are involved in the
nominating process. The Department components we are reviewing include the
FBI, the DEA, the ATF, and the United States Marshals Service (USMS). We
are conducting this review in conjunction with other Intelligence Community
OIGs, who are examining the watchlist nomination process in their agencies.




Office of the Inspector General, U.S. Department of Justice           Page 10
V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,790,114 in
personnel costs, $17,719 in travel costs (for investigators to conduct
interviews), and $34,472 in miscellaneous costs, for a total of $1,842,305 to
implement its responsibilities under Section 1001. The total personnel and
travel costs reflect the time and funds spent by OIG special agents, inspectors,
and attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice            Page 11
